         Office Of Inspector General




November 16, 2005

WILLIAM T. JOHNSTONE
SECRETARY OF THE BOARD OF GOVERNORS

SUBJECT:      Transmittal of Audit Report – Postal Service Board of Governors Travel
              and Miscellaneous Expenses for Fiscal Year 2005
              (Report Number FT-AR-06-001)

This report presents the results of our audit of the Board of Governors travel and
miscellaneous expenses for fiscal year 2005 (Project Number 05BM004FT000). We
conducted the audit in response to a Board of Governors resolution requiring annual
audits of its travel and miscellaneous expenses.

Our audit disclosed the Office of the Board of Governors travel and miscellaneous
expenses (totaling approximately $118,000) and external professional fees (totaling
approximately $64,000) for the fiscal year ended September 30, 2005, were properly
supported and complied with Postal Service policies and procedures and Board of
Governors guidelines. Our audit does not provide absolute assurance of the absence of
fraud or illegal acts, due to the nature of evidence and the characteristics of such
activities. The results of the audit were discussed with Postal Service management on
November 8, 2005. Because there were no recommendations provided, management
chose not to respond to this report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Lorie Siewert,
Director, Financial Statements, or me at (703) 248-2300.

   E-Signed by Inspector General
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Acting Deputy Assistant Inspector General
 for Financial Operations

Attachment

cc: Richard J. Strasser, Jr.
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Margaret A. Weir
    Steven R. Phelps
Postal Service Board of Governors Travel and                                      FT-AR-06-001
 Miscellaneous Expenses for Fiscal Year 2005


                                        INTRODUCTION
Background                    The Postal Reorganization Act of 1970, as amended,
                              established the Office of the Board of Governors (the
                              Board), comprising the Postmaster General, Deputy
                              Postmaster General, and nine governors appointed by the
                              President. As of September 30, 2005, the Board consisted
                              of the Postmaster General, Deputy Postmaster General, and
                              six governors.

                              The Board directs and controls the expenditures of the
                              Postal Service, reviews its practices and policies, and
                              establishes objectives and goals in accordance with Title 39,
                              United States Code. On July 8, 1986, the Board passed
                              Resolution Number 86-12, which requires annual audits of
                              the Board of Governors travel and miscellaneous expenses.

                              The Board of Governors generally meets monthly in
                              Washington, D.C., or other locations where members can
                              visit Postal Service facilities or large mailer operations. In
                              fiscal year (FY) 2005, the Board held 11 regular meetings, in
                              addition to committee meetings. For the fiscal year ended
                              September 30, 2005, the Board incurred approximately
                              $118,000 in travel and miscellaneous expenses and
                              approximately $64,000 in external professional fees.

Objective, Scope,             The objective of the audit was to determine whether the
and Methodology               travel and miscellaneous expenses incurred by the Board
                              were properly supported and complied with Postal Service
                              policies and procedures and Board of Governors guidelines.

                              To accomplish our objective, we reviewed all 104 travel and
                              miscellaneous expense vouchers submitted by the Board
                              during FY 2005. We also reviewed all professional fees paid
                              to outside firms at the request of the independent public
                              accountant, Ernst & Young LLP. The criteria used in our
                              evaluation were the Board’s Guidelines Relating to
                              Governors' Official Expenses, effective January 1, 1998; and
                              Postal Service travel policies and procedures.

                              We conducted this audit from April through November 2005
                              in accordance with generally accepted government auditing
                              standards and included such tests of internal controls and
                              accounting records, and other auditing procedures, as we
                              considered necessary. Our tests of controls were limited to




                                                2
Postal Service Board of Governors Travel and                                           FT-AR-06-001
 Miscellaneous Expenses for Fiscal Year 2005


                                   those necessary to achieve our audit objective. Our
                                   procedures were not designed to provide assurance on
                                   internal controls. Consequently, we do not provide an
                                   opinion on such controls. We discussed our observations
                                   and conclusions with management officials and included
                                   their comments where appropriate.

                                   We relied on computer-generated data from Postal Service’s
                                   financial accounting systems, specifically, the Accounts
                                   Payable Accounting and Reporting System II (APARS II)
                                   and Accounts Payable Excellence (APEX).1 We performed
                                   specific internal control transaction tests on these systems’
                                   data, to include tracing selected financial information to
                                   supporting source documentation. For example, we verified
                                   that payment authorizations supported payments recorded
                                   in APARS II and APEX and the amounts were properly
                                   applied to the appropriate general ledger accounts.

Prior Audit Coverage               We have audited the Board’s travel and miscellaneous
                                   expenses for each fiscal year since FY 1998 and have not
                                   identified any reportable conditions. The results of our most
                                   recent audit for FY 2004 were disclosed in our report, Postal
                                   Service Board of Governors Travel and Miscellaneous
                                   Expenses for Fiscal Year 2004 (Report
                                   Number FT-AR-05-004, dated December 20, 2004).




1
    In August of FY 2005, the Postal Service replaced APARS II with the APEX system.




                                                          3
Postal Service Board of Governors Travel and                                      FT-AR-06-001
 Miscellaneous Expenses for Fiscal Year 2005


                                     AUDIT RESULTS
Audit Results                 Our audit disclosed that travel and miscellaneous expenses
                              (totaling approximately $118,000) and external professional
                              fees (totaling approximately $64,000) which the Board
                              incurred in the fiscal year ended September 30, 2005, were
                              properly supported and complied with the Board of
                              Governors guidelines and Postal Service policies and
                              procedures. Our audit does not provide absolute assurance
                              of the absence of fraud or illegal acts, due to the nature of
                              evidence and the characteristics of such activities.

Management’s                  We discussed the results of the audit with Postal Service
Comments                      management on November 8, 2005. Because there were
                              no recommendations provided, management chose not to
                              respond to this report.

Evaluation of                 No action by management was required.
Management’s
Comments




                                               4
